App. 1
APPENDIX A
Marine Corps Force Integration Plan – Summary
Background
Since the Secretary of Defense fully rescinded the Direct Ground Combat Deﬁnition and Assignment Rule
{DGCDAR) in January 2013, the Marine Corps Force
Integration Plan has been the Service’s deliberate,
measured, and responsible approach to better understand all aspects of gender integration while setting
the conditions for successful policy implementation.
Central to this historic research effort has been the
clear recognition that the brutal and extremely physical nature of direct ground combat, often marked
by close, interpersonal violence, remains largely unchanged throughout centuries of warfare, despite technological advancements.
The precursor to the full DGCDAR rescission was
the Department of Defense lifting of the co-location restriction in February 2012, which enabled female service members to co-locate with ground combat units
that had a high probability of engaging in direct
ground combat. The lifting of that restriction has been
an unquestionable combat multiplier for our Marine
Air Ground Task Forces (MAGTF) serving throughout
the world. As an agile, adaptable, expeditionary force
that task organizes as a rule, our MAGTF commanders now have the widest latitude to employ the fullest capabilities of their force. Leveraging the talents
of every Marine without restrictions throughout the
depth and breadth of what are increasingly more

App. 2
complex operating environments enables a more capable Marine Corps.
The Marine Corps consists of 7.6% female Marines
within the Active Component and 7% of the Total
Force. Today, female Marines are eligible to serve in
315 of the 337 primary military occupational specialties. Female Marines have performed superbly in the
combat environments of Iraq and Afghanistan and are
fully part of the fabric of a combat-hardened Marine
Corps after the longest period of continuous combat operations in the Corps’ history. Moreover, visits with numerous allied militaries throughout this past year,
designed to better understand their experiences in successfully integrating female service members into
ground combat occupations, point to the fact that female Marines are clearly among the most combat experienced servicewomen in the world.
Research & Planning
The 1992 Presidential Commission on the Assignment
of Women in the Armed Forces, the last extensive examination of gender integration within U.S. ground
combat units, concluded in its formal report:
“A military unit at maximum combat effectiveness is a
military unit least likely to suffer casualties. Winning
in war is often only a matter of inches, and unnecessary
distraction or any dilution of the combat effectiveness
puts the mission and lives in jeopardy. Risking the lives
of a military unit in combat to provide career opportunities or accommodate the personal desires or interests

App. 3
of an individual, or group of individuals, is more than
bad military judgment. It is morally wrong.”
In light of that report, the Marine Corps recognized the
need to conduct a deliberate and comprehensive research effort to base future recommendations on quantitative data to the fullest extent possible. As part of
its Force Integration Plan, the Marine Corps commissioned and/or reviewed a number of studies, employing
both internal Marine Corps agencies and external/
civilian research entities. This far-reaching and fully
integrated research and analytical effort has signiﬁcantly increased the Marine Corps’ understanding of
the requirements associated with service in ground
combat occupations and units. The Marine Corps holds
as an axiom that all Marines, male and female, are
equal and possess the same strong character demanded of United States Marines. Therefore, these
studies principally focused on those unique physical
and physiological demands of service in ground combat
occupations and units, while also analyzing the more
intangible yet all-important aspects of unit cohesion
and morale.
Concurrent with this unprecedented research effort
has been detailed planning to ensure the successful integration of female Marines into previously closed
ground combat arms occupations and units. This deliberate planning effort, which has spanned the past year,
has been guided by previous Marine Corps gender integration experiences and informed by visits to a
number of allied militaries in an effort to better understand successful implementation strategies. A key

App. 4
component of this planning has been the development
of a Long Term Assessment Plan designed to provide a
detailed, quantitative assessment of female integration over time. This assessment, which includes regular formal reporting to senior Marine Corps leaders,
will also inform in-stride policy adjustments, as required.
At the heart of this research effort was the analysis
of female Marine volunteer performance at ground
combat arms entry-level, military occupational specialty-producing formal schools. The results from the
Training & Education Command entry-level training
research provided insights into relative propensity
among new female Marines to serve in various ground
combat arms occupations, as well as relative success
and injury rates and causes, by gender. Since the programs of instruction at these formal learning centers
necessarily focus on basic individual tasks, this research alone was unable to answer the broader questions: “What does it actually take to do the job in the
operating forces within these MOSs?” and, “What is
the impact, if any, of female integration in ground combat arms units on collective task performance under
conditions that most closely approximate combat?” Because formal congressional notiﬁcation requirements
precluded simply introducing female Marines into previously closed ground combat units to answer the
above broader questions, it was necessary to build a
unit designed speciﬁcally to conduct such research –
the Ground Combat Element Integrated Task Force
(GCEITF).

App. 5
Considerations
In analyzing the results of the research and analysis,
the primary consideration throughout has been to understand any impact on the combat effectiveness of
Marine ground combat units. Based on the unique role
the Marine Corps fulﬁlls within the Joint Force and in
the security of the nation, the benchmark of achieving
the “most combat effective” force has remained the unwavering focus. With this primary consideration, the
Marine Corps has analyzed factors such as speed and
tempo, lethality, readiness, survivability, and cohesion
– critical components to ﬁghting and winning in direct
ground combat.
The Marine Corps’ capstone doctrinal publication,
Warﬁghting, has served as the operational lens for the
assessment of research results, particularly passages
such as:
“Of all the consistent patterns we can discern in war,
there are two concepts of universal signiﬁcance in generating combat power: speed and focus. Speed is rapidity of action. It applies to both time and space. Speed
over time is tempo – the consistent ability to operate
quickly. Speed over distance, or space, is the ability to
move rapidly. Both forms are genuine sources of combat
power. In other words, speed is a weapon.”
A second consideration in assessing research results
has been the health and welfare of the individual Marine. The Marine Corps recognizes the extreme and, in
some cases, increasing physical demands of direct
ground combat as well as the unchanging differences

App. 6
in human physiology between males and females as an
essential element of its responsible approach to gender
integration. Moreover, the Marine Corps has a solemn
obligation, as outlined in one of Chairman Dempsey’s
ﬁve guiding principles, to “set each [Marine] up for success with viable career paths.”
Tied directly to the previous considerations is the imperative of managing the talents of the force – today
and into the future. The importance of leveraging the
talents of each individual Marine to the fullest extent
possible within our Marine Air Ground Task Forces
cannot be overstated – assigning the right Marine to
the right job with the appropriate skills and qualiﬁcations. The Marine Corps ﬁghts as units; therefore developing and maintaining the most combat effective
units must always be at the forefront of any contemplated institutional change.
In viewing the results of research through these three
inter-related lenses – combat effectiveness, the health
and welfare of individual Marines, and talent management – the Commandant of the Marine Corps has been
afforded unprecedented quantitative information in
support of ﬁelding the most combat effective units.
This will ensure that the Marine Corps remains fully
capable of ﬁghting and winning on today’s and tomorrow’s extremely complex and challenging battleﬁelds.

App. 7
Summary of Research Findings
•

Combat Effectiveness
○

Overall: All-male squads, teams and crews
demonstrated higher performance levels on
69% of tasks evaluated (93 of 134) as compared to gender-integrated squads, teams and
crews. Gender-integrated teams performed
better than their all-male counterparts on (2)
events.

○

Speed: All-male squads, regardless of infantry MOS, were faster than the gender-integrated squads in each tactical movement. The
differences were more pronounced in infantry
crew-served weapons specialties that carried
the assault load plus the additional weight of
crew-served weapons and ammunition.

○

Lethality:
All-male 0311 (riﬂeman) infantry squads had
better accuracy compared to gender-integrated squads. There was a notable difference
between genders for every individual weapons system (i.e. M4, M27, and M203) within
the 0311 squads, except for the probability of
hit & near miss with the M4.

○

Male provisional infantry (those with no formal 03xx school training) had higher hit percentages than the 0311 (school trained)
females: M4: 44% vs 28%, M27: 38% vs 25%,
M16A4w/M203: 26% vs 15%.

○

All-male infantry crew-served weapons teams
engaged targets quicker and registered more hits
on target as compared to gender-integrated

App. 8
infantry crew-served weapons teams, with the
exception of M2 accuracy.
○

•

All-male squads, teams and crews and gender-integrated squads, teams, and crews had
a noticeable difference in their performance of
the basic combat tasks of negotiating obstacles and evacuating casualties. For example,
when negotiating the wall obstacle, male Marines threw their packs to the top of the wall,
whereas female Marines required regular
assistance in getting their packs to the top.
During casualty evacuation assessments,
there were notable differences in execution
times between all-male and gender-integrated
groups, except in the case where teams conducted a casualty evacuation as a one-Marine
ﬁreman’s carry of another (in which case it
was most often a male Marine who “evacuated” the casualty).

Health and Welfare of Marines
In addition to performance, evidence of higher injury rates for females when compared to males
performing the same tactical tasks was noted. The
well documented comparative disadvantage in upper and lower -body strength resulted in higher fatigue levels of most women, which contributed to
greater incidents of overuse injuries such as stress
fractures. Research from various U.S. and allied
military studies reveal that the two primary factors associated with success in the task of movement under load are 1) lean body mass and 2)
absolute V02 Max. Findings from the physiological assessment of GCEITF males and females

App. 9
conducted by the University of Pittsburgh’s Neuromuscular Research Laboratory include:
○

Body composition: Males averaged 178 lbs,
with 20% body fat: females averaged 142 lbs,
with 24% body fat

○

Anaerobic Power: Females possessed 15% less
power than males; the female top 25th percentile overlaps with the bottom 25th percentile
for males

○

Anaerobic Capacity: Females possessed 15%
less capacity; the female top 10th percentile
overlaps with the bottom 50th percentile of
males

○

Aerobic Capacity (V02Max): Females had 10%
lower capacity; the female top 10th percentile
overlaps with bottom 50th percentile of males

○

Within the research at the Infantry Training
Battalion, females undergoing that entrylevel training were injured at more than sixtimes the rate of their male counterparts
•

○

27% of female injuries were attributed to
the task of movement under load, compared to 13% for their male counterparts,
carrying a similar load.

During the GCEITF assessment, musculoskeletal injury rates were 40.5% for females,
compared to 18.8% for males
•

Of the 21 time-loss injuries incurred by
female Marines, 19 were lower extremity
injuries and 16 occurred during a movement under load task

App. 10
•

Talent Management
The Marine Corps Recruiting Command has signiﬁcantly increased the number of female accessions, both ofﬁcer and enlisted, to unprecedented
levels over the past few years. The Marine Corps
must continue to attract, develop, and retain
highly talented female Marines to meet current
and future challenges throughout the range of military operations.
○

Female enlisted accessions have increased to
10.8% in 2014, an ~4.5% increase since 2008

○

Female ofﬁcer accessions have increased to
11.6% in 2014, an ~5% increase since 2008

○

Female ofﬁcer applicants represent a growing
percentage of applications received each year,
increasing from 8.9% in 2010 to 13.7% in 2014

○

Infantry Ofﬁcer Course graduation rate between May 12-Apr 15: 0% of 29 females as
compared to 71% of 978 males

○

Infantry Training Battalion graduation rates
between Sep 13-Jun 15: 144 of 401 female volunteers (36%) as compared to 5448 of 5503
males (99%)

○

Artillery Cannon Crewman Course: 12 of 14
female volunteers (86%) as compared to 226
of 263 males (86%)

○

Tank Crewman Course: 5 of 7 female volunteers (71%) as compared to 67 of 68 males
(99%)

App. 11
○

AAV Crewman Course: 5 of 7 female volunteers (71%) as compared to 106 of 113 males
(94%)

